<html>
<title> - HEARING ON H.R. 1004, PROHIBITING UNAUTHORIZED MILITARY ACTION IN VENEZUELA ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   HEARING ON H.R. 1004, PROHIBITING UNAUTHORIZED MILITARY ACTION IN 
                             VENEZUELA ACT

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

                           Serial No. 116-14

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                                              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-611PDF                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="51213e113224222539343d217f323e3c7f">[email&#160;protected]</a>                                
                       
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                     ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas          

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

            PREPARED STATEMENTS SUBMITTED BY REPRESENTATIVE

Hon. David Cicilline, a Representative in Congress from the State 
  of Rhode Island................................................     7

                               WITNESSES

Bill Chavez, Dr. Rebecca, Non-Resident Senior Fellow, Inter-
  American Dialogue..............................................    14
Pearlstein, Deborah, Professor of Law and Co-Director, 
  Floersheimer Center for Constitutional Democracy, Benjamin N. 
  Cardozo School of Law, Yeshiva University......................    23
Neumann, Dr. Vanessa, President, Asymmetrica.....................    34

                                APPENDIX

Hearing Notice...................................................    62
Hearing Minutes..................................................    63
Hearing Attendance...............................................    64

 
                   HEARING ON H.R. 1004, PROHIBITING
             UNAUTHORIZED MILITARY ACTION IN VENEZUELA ACT

                       WEDNESDAY, MARCH 13, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 4:05 p.m., in 
Room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record, subject to 
the length limitation in the rules.
    This afternoon, the committee continues its examination of 
the ongoing crisis in Venezuela, with particular focus on 
legislation offered by a member of this committee, Mr. David 
Cicilline of Rhode Island. That bill is H.R. 1004, the 
Prohibiting Unauthorized Military Action in Venezuela Act. Mr. 
Cicilline will testify on this bill presently, then we will 
welcome a second panel of experts.
    My position on Venezuela has been clear: I believe that the 
United States and our allies in the Lima Group and the European 
Union must continue to squeeze Nicolas Maduro and push for a 
peaceful, democratic transition. The suffering in Venezuela is 
a man-made humanitarian crisis in what was once the wealthiest 
country in South America. The people of Venezuela deserve far 
better than what Mr. Maduro's dictatorship and his predecessor, 
Mr. Chavez, have given them. And I stand with Juan Guaido as he 
bravely leads his fellow citizens toward a brighter future.
    At the same time, we must be clear: U.S. military 
intervention to shape the future of Venezuela is not an option. 
I continue to worry about the Administration's saber rattling 
and constant reminders that military action remains on the 
table. The Lima Group, which includes Argentina, Brazil, Chile, 
and Colombia, the EU, and even my friend, former Colombian 
President Alvaro Uribe, have rejected that possibility. Our 
former SOUTHCOM commander, Admiral James Stavridis, has written 
powerfully about the perils of U.S. military intervention in 
Venezuela.
    Today's hearing is to explore this issue in greater detail.
    Now, I have heard arguments that we in Congress should not 
debate the use of force in Venezuela, that we should wait and 
see what course the President takes before we take up this 
issue. I disagree. Under Article I of the Constitution, 
Congress desides whether America will go to war; under Article 
II, the President has the power to defend our country, but that 
is not what we are talking about here.
    The longer I have been in Congress, the stronger I feel 
that the Congress declares whether or not we should go to war. 
And, of course, we have not been doing that since 1941.
    The Constitution and the War Powers Resolution are clear 
that it is our responsibility to consider the use of force 
before any troops are introduced into hostilities. The law 
requires, and I quote, the President in every possible instance 
shall consult with Congress before introducing United States 
Armed Forces into hostilities, unquote.
    And the President's obligation does not end with 
consultation. If he decides to deploy our military, he needs 
congressional authorization before they are introduced into 
hostilities.
    I will be the first to admit that Congress has not done a 
good job in holding administrations of both parties to the 
letter of the law. We have handed over the keys for too long, 
and the executive branch has left Congress in the dust. We 
should not stand for it anymore, and I am not going to put off 
this debate a day longer. These are the gravest decisions our 
government must face, and we must do so only as the 
Constitution provides.
    As I have said again and again, I oppose military 
intervention in Venezuela. But since the Administration keeps 
raising the possibility, I want to know what would it look 
like, how does the Administration see this playing out. I would 
like to think after our disastrous war in Iraq, we have learned 
our lesson about plunging the United States into another war 
without a clear path forward. And let us not forget, Venezuela 
is more than twice the size of Iraq.
    Would Maduro's colectivos join with rogue elements of the 
Venezuelan security forces and develop into an insurgency, what 
would be the impact of such a conflict be on Colombia, a 
country that has opened up its heart and homes to over a 
million Venezuelan migrants? Would a government that comes to 
power with the backing of the U.S. intervention have any 
legitimacy in the eyes of the Venezuelan people and other 
governments in the region?
    These questions barely scratch the surface, which is why it 
is so important that this committee deal with the serious and 
weighty concerns that accompany a military intervention before 
it occurs, not after it has already begun.
    I would like to close with this reminder: I did not call 
this hearing and Mr. Cicilline did not introduce his 
legislation as a solution in search of a problem. We have a 
problem when the Administration keeps telling us that the use 
of force remains on the table.
    Frankly, I would rather be focusing on how to support the 
people of Venezuela in their struggle for a better future. 
Tomorrow we will be considering three bills that would do so.
    But as a coequal branch of government with key 
responsibilities, dealing with questions of war and peace, we 
cannot just stand here and shrug our shoulders. We cannot wait 
for American servicemembers to be placed in harm's way and then 
start to ask questions.
    So I hope we have an instructive discussion this afternoon. 
I will now yield to our ranking member, Mr. McCaul of Texas, 
for any opening remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    The situation in Venezuela is really going from bad to 
worse. For the past week, the country has been struggling with 
nationwide energy blackouts, there are shortages of food and 
medicine. Simply put, this is a result of Nicolas Maduro's 
socialist policies, criminal activity, and corruption.
    Over 3 million people have fled the country, with more 
escaping every day. Maduro has even turned his armed thugs or 
colectivos against those who are trying to deliver humanitarian 
aid.
    Our colleague and witness today, Congressman Cicilline, 
previously stated that the Maduro regime's corruption and 
negligence has devastated Venezuela's economy, starved its 
people, and brought the Nation to the brink of collapse. I 
could not agree more.
    All clear-eyed and freedom-loving people around the world 
want to see Maduro gone so free and fair elections can be held. 
To make that happen, Maduro and his cronies must understand 
that the best outcome for them is to step down and leave the 
country peacefully. I know all of us want that as well. 
However, this legislation we are discussing today jeopardizes 
that outcome in several ways by appearing to take military 
force off the table.
    First, it immediately takes pressure off the regime with 
punishing sanctions, a coalition of 54 countries supporting the 
opposition, and massive protests. Maduro is feeling the heat. 
We should not give him reason to breathe a sigh of relief.
    Second, it would put the security of Juan Guaido and his 
family in jeopardy, something I personally talked to the Vice 
President about. Maduro could easily become more aggressive in 
cracking down on the opposition. In fact, Ambassador Vecchio, I 
talked to this morning, told me that the attorney general has 
applied for a writ in the Venezuelan Supreme Court to arrest 
President Guaido. This could all lead to violence and potential 
casualties.
    As I said just yesterday, the attorney general launched a 
baseless investigation of Guaido for an alleged attack on the 
power grid. So the threat is real. We should not undermine the 
security of the very people we are trying to support, the 
people of Venezuela.
    Third, it sends the wrong signal to both our allies and 
adversaries. Without the threat of military force, it will look 
like we are hedging our bets. This will deflate Juan Guaido and 
his supporters and embolden our enemies, Russia and Cuba. This 
bill also plays right into the Maduro regime's strategy.
    Just last month, in remarks at the United Nations, Maduro's 
illegitimate foreign minister called on the Security Council to 
reject the threat of the use of force against the Venezuelan 
people.
    Finally, it will show a divided Congress, something the 
Ambassador has warned us about. As I said, I have personally 
spoken with the Vice President and Special Representative 
Elliott Abrams, and as recent as this afternoon with the 
Ambassador Carlos Vecchio, who all expressed concern about 
discussing this bill at this critical time. They all stress the 
need for bipartisan unity.
    Maduro's repeated mention of U.S. military intervention is 
simply a ploy to divide the coalition of 54 countries 
supporting democracy and the people of Venezuela. Opponents of 
this legislation are not pushing for military actions. I for 
myself am a strong believer in the sole power of Congress to 
declare war under Article I of the Constitution.
    I do not believe that this administration is planning to 
invade Venezuela. And if it did, I would be the first to push 
Congress to act. But this premature signal sends a dangerous 
message at a very delicate time. The nations that support 
Maduro's illegitimate regime, especially Cuba and Russia, are 
the very ones carrying out the real foreign intervention.
    As Secretary Pompeo recently stated, the United States is 
drawing a clear line between those who aid forces of repression 
and those who give life to the Venezuelan people's democratic 
dreams. One immediate step we can all take here today is to 
show our solidarity with the people of Venezuela and to 
directly recognize interim President Juan Guaido as the 
legitimate President of Venezuela just as 54 other countries 
have. I strongly do and encourage my democratic colleagues to 
do so today as well.
    The people of Venezuela have suffered enough. They are 
finally on the verge of taking their country back. Let us not 
do this bill. Let us not let this bill complicate their efforts 
to achieve freedom from socialist tyranny, and put an end to 
this humanitarian crisis and disaster.
    With that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you very much, Mr. McCaul.
    Let me now introduce our first witness, though he is 
certainly well known to all of us. David Cicilline has 
represented Rhode Island's First congressional District in the 
House since 2011. He is a senior member of this committee and 
chairman of the Judiciary Subcommittee on Antitrust, Commercial 
and Administrative Law. And he is the author of H.R. 1004, the 
Prohibiting Unauthorized Military Action in Venezuela Act.
    Mr. Cicilline, you are recognized to offer your testimony.

  STATEMENT OF THE HON. DAVID CICILLINE, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, Ranking 
Member McCaul and distinguished colleagues on this committee. I 
appreciate the opportunity to speak about my legislation, H.R. 
1004, the Prohibiting Unauthorized Military Action in Venezuela 
Act.
    I appreciate the committee's willingness to take on the 
important issue of executive overreach in military engagement, 
an issue that is fundamental to the constitutional role of 
Congress and on which there is bipartisan agreement that 
Congress must take a stronger stand in ensuring appropriate 
consultation and oversight.
    As we meet here this afternoon, the people of Venezuela are 
suffering in darkness, literally. Millions have been without 
power for days. We all agree the Maduro regime has destroyed 
Venezuela's economy, starved its people, and engaged in 
widespread corruption and repression. We all agree the people 
of Venezuela deserve a better future, a future they determine. 
We all believe the Venezuelan people have a right to pick their 
leaders, a right Maduro has denied his people by refusing to 
hold free and fair elections.
    To be absolutely clear, Nicolas Maduro is a dictator who 
does not care about the Venezuelan people. Maduro's corrupt 
kleptocratic regime has left Venezuela's economy in shambles, 
its people without food, and its hospitals without basic 
medicines. Millions have fled this despair and oppression.
    The people of Venezuela deserve better. They deserve a 
democratic future. They deserve to pick their own leaders, 
which is why I joined many of my colleagues in supporting the 
Venezuelan National Assembly's decision to choose Juan Guaido 
as the interim President of Venezuela.
    It is my hope that there will be a diplomatic solution that 
allows for free and fair elections in the near future, and I 
believe U.S. policy should be conducted with this end in mind. 
As the chairman said, we would not be here and considering this 
legislation, but for the actions and words of the Trump 
administration.
    This administration's rhetoric implying that they are 
willing to use military force in Venezuela is unfortunate. Not 
only would military intervention be illegal; it would also come 
with serious consequences that I fear would not only hurt the 
Venezuelan people, but also the prospect for democracy.
    Under the Constitution and War Powers Act, the President 
may not take unilateral military action and must consult with 
and receive authorization from Congress. As Special 
Representative Elliott Abrams confirmed when he was testifying 
here before this committee, the conditions for unilateral 
Presidential military action have not been met. Congress has 
not declared war on Venezuela. There is not any existing 
statutory authorization that would allow for military 
intervention in Venezuela. And Venezuela has not attacked the 
United States, its territories or possessions or its Armed 
Forces.
    That is why I introduced this legislation, which would 
simply prohibit funds from being spent on any unauthorized 
military engagement in Venezuela. Although the Administration 
is well aware they do not have proper authorization to engage 
in a military action in Venezuela, they have continued the 
drumbeat of aggressive saber rattling rhetoric promoting 
military intervention as an option.
    We know from the past they have not seen the need to seek 
proper congressional approval for military intervention when 
they took action against the Assad regime in Syria without 
proper authorization. In my view, military action in Venezuela 
is not an option, not without congressional authorization.
    To be clear, nothing in this bill prevents military action 
against or in Venezuela or anywhere else. It simply prohibits 
funds to be used for unauthorized military action in Venezuela. 
Should the situation in Venezuela pose an imminent threat to 
American national security, nothing in this bill stops the 
Administration or any administration from seeking authority 
from Congress for military intervention per the War Powers Act.
    However, without meeting the conditions under the War 
Powers Act, any U.S. military action with respect to Venezuela 
would be illegal and ill-advised. Americans do not want another 
foreign military engagement, and the Administration has not 
made any case for military intervention in Venezuela.
    The United States must continue to work with the Lima 
Group, Europeans, and the international community to use 
diplomatic and economic tools to pressure Maduro to honor the 
will of his people. Humanitarian aid must be allowed into the 
country to aid the suffering Venezuelan people. Congress should 
do everything in its power to support a peaceful, truly 
democratic transition of power in Venezuela.
    The Constitution gave Congress, not the executive branch, 
the power to determine when the United States goes to war. And 
it is time we assert our constitutional duty and send a clear 
message that without congressional authorization, this 
administration or any administration cannot take the country to 
war unilaterally.
    It is also worth noting that many foreign policy experts 
have noted that Maduro uses the threat of military action in 
his propaganda campaign to try to say in power. I am sensitive 
to the arguments that my colleagues may make that the timing is 
sensitive and we do not want to do anything to seem like we are 
supporting a dictator. While I appreciate the sincerity of my 
colleagues' arguments, I have to say, when will the timing of 
military intervention not be sensitive?
    We are 18 years into war in Afghanistan, 16 years in Iraq, 
engaged in various ways in numerous engagements elsewhere, and 
yet Congress has never found time to reassert our control over 
military engagement. It is also important to note that the 
absence of congressional action sends its own message. The time 
for Congress to weigh in is now.
    I am thankful to the more than 50 bipartisan cosponsors, 
many of them members of this committee who are supporting this 
bill. I want to thank you, Chairman Engel, Ranking Member 
McCaul, for how holding this important hearing and for 
considering this piece of legislation. And I look forward to 
the committee holding a markup and passing this legislation in 
the near future. And I thank you again.
    [The statement of Mr. Cicilline follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Well, thank you very much, Mr. Cicilline.
    We will now pause to allow our second panel of witnesses to 
take their seats.
    Chairman Engel. Well, good afternoon. Let me welcome our 
witnesses. Dr. Rebecca Bill Chavez is a nonresident senior 
fellow at the Inter-American Dialogue. She previously served as 
Deputy Assistant Secretary of Defense for Western Hemisphere 
Affairs, from 2013 until 2017, as a senior advisor to the 
Secretary of Defense on Latin America. Dr. Chavez focused on 
supporting the Colombian Ministry of Defense's role in the FARC 
peace process, increasing Mexico's commitment to regional 
security cooperation, and shaping DoD contributions to 
President Obama's Central American strategy.
    Dr. Vanessa Neumann is the founder and president of 
Asymmetrica, a consultancy on political risk and strategies to 
dismantle illegal trade. She served for 4 years at the OECD, 
where she worked on the task force on countering illicit trade. 
Dr. Neumann has been published in The Wall Street Journal, the 
Guardian, and is an author of the 2017 book, ``Blood Profits: 
How American Consumers Unwittingly Fund Terrorists.''
    And to introduce our third witness, I will yield to Mr. 
Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member.
    Before I do that, I just want to acknowledge an 8th grade 
class here from Harlem Academy that I met outside of the 
hearing room, Mr. Chairman.
    I spoke to them a little bit about Venezuela, and they seem 
to know a little bit more than many of us here, so maybe they 
have a bright future.
    But I am proud to introduce Professor Deborah Pearlstein, a 
professor of constitutional international law at Cardozo Law 
School, a part of Yeshiva University, whose main campus is 
right in the middle of my district. A leading voice on law and 
counterterrorism, Professor Pearlstein has held positions at 
Princeton, Georgetown, and the University of Pennsylvania. She 
also currently serves on the editorial board of the Journal of 
National Security Law and Policy.
    Professor Pearlstein has researched, written, litigated, 
and advocated extensively on the human rights impact of the 
U.S. National Security Policy and U.S. detention and 
interrogation operations. And from 2003 to 2007, she served as 
the founding director of the law and security program at Human 
Rights First. Throughout her tenure, Professor Pearlstein 
worked closely with members of the defense and intelligence 
community, including helping to bring together retired military 
leaders to address key policy challenges in U.S. 
counterterrorism operations.
    Thank you for your time this morning, Professor, and 
welcome.
    Chairman Engel. Thank you.
    I will now recognize our witnesses to offer their opening 
comments. Why do not we start with you, Dr. Chavez.

 STATEMENT OF REBECCA BILL CHAVEZ, PH.D., NON-RESIDENT SENIOR 
                FELLOW, INTER-AMERICAN DIALOGUE

    Ms. Chavez. Chairman Engel, Ranking Member McCaul, members 
of the committee, thank you for the opportunity to testify on 
potential U.S. military intervention in Venezuela. And thank 
you also for your bipartisan commitment to maintaining focus on 
Venezuela and to helping resolve the crisis there.
    My name is Rebecca Bill Chavez. I am a senior fellow at the 
Inter-American Dialogue. From 2013 until January 2017, I served 
as Deputy Assistant Secretary of Defense for the Western 
Hemisphere, where I oversaw U.S. defense policy in the 
hemisphere. Before that, I was a tenured professor of political 
science at the U.S. Naval Academy.
    I am deeply troubled by the humanitarian crisis and the 
unraveling of democracy under Nicolas Maduro, a brutal and 
corrupt dictator. And I want to be clear here, Maduro stands at 
the center of Venezuela's manmade disaster. He has followed 
Hugo Chavez' footsteps by systematically dismantling democratic 
institutions and shamelessly violating human rights.
    The U.S. has a role in resolving the impasse, but the 
question today is whether the U.S. should use military force to 
remove Maduro from power. My answer is no. I will highlight two 
reasons for this.
    First, military intervention would be much more difficult 
than many believe. It would not be quick, and it would involve 
engagement with the Venezuelan military, armed civilians, and 
non-State actors.
    Second, international pressure via regional partners and 
European allies is one of our most important tools. We will 
squander that partnership if we continue to threaten military 
intervention and much more so if we do intervene militarily in 
Venezuela. We also risk losing the trust so painstakingly built 
in the region over the past couple of decades.
    There have been many references to the 1989 invasion of 
Panama as a potential template. This comparison is very 
misguided. At the time of Operation Just Cause, SOUTHCOM was 
headquartered in Panama, so logistics and intel collection were 
relatively easy. The conflict lasted less than 2 weeks and 
required 24,000 U.S. troops.
    Venezuela is a mountainous country, twice the size of Iraq, 
with multiple urban centers, which would mean thousands of 
civilian casualties. An invasion would likely require between 
100,000 and 150,000 U.S. troops, four to six times the number 
needed in Panama. In Panama, U.S. Forces had to contend with 
4,000 Panamanian combat troops. The Venezuelan military is 
comprised of 356,000 members. And, unfortunately, defections 
have not been on the scale that we had hoped.
    Maduro has deftly used both carrots and sticks to ensure 
military loyalty. Chavez' practice of purging anyone seen as a 
threat has continued under Maduro. On the carrot side, Maduro 
gave officers control over food distribution, a lucrative black 
market. Promotions have been given for loyalty, which is why 
there are over 2,000 generals in Venezuela. But the military 
would not be the only challenge.
    Our troops would face an insurgency comprised of armed 
groups, such as the violent colectivos, and nonState actors 
with access to funding through drug trafficking, illegal 
mining, and extortion. Even Colombian ELN guerillas and 
dissident FARC members would have incentives to join the fight, 
and the conflict would certainly spill over into Colombia, 
adding to Colombia's challenges as it struggles to implement 
the 2016 Peace Accord.
    Another consequence would be the unraveling of the hard 
fought regional and international consensus that has 
marginalized Maduro. The vast majority of our partners have 
unequivocally stated their opposition to military intervention, 
including Lima Group members Colombia and Brazil. A military 
intervention would set us back at a time when China and Russia 
are gaining influence in the region.
    For these reasons, it is critical that Congress play a role 
in any decision to intervene militarily in Venezuela. 
Congressman Cicilline's proposed legislation would help 
accomplish that goal.
    Thank you again for shining a light on what is happening in 
Venezuela. I would be more than happy to assist the committee 
as it formulates policy approaches to address the ongoing 
tragedy in Venezuela.
    [The statement of Ms. Chavez follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Dr. Chavez.
    Ms. Pearlstein.

   STATEMENT OF DEBORAH PEARLSTEIN, PROFESSOR OF LAW AND CO-
  DIRECTOR, FLOERSHEIMER CENTER FOR CONSTITUTIONAL DEMOCRACY, 
     BENJAMIN N. CARDOZO SCHOOL OF LAW, YESHIVA UNIVERSITY

    Ms. Pearlstein. Thank you very much.
    Chairman Engel. If you can pull the mike a little closer. 
Is the button pushed?
    Ms. Pearlstein. Thank you. Is this better?
    Chairman Engel. Yes.
    Ms. Pearlstein. Thank you very much, Chairman Engel and 
Ranking Member McCaul and the members of the committee. Thank 
you for giving me the opportunity to discuss legal issues 
surrounding H.R. 1004, a bill to restrict Federal funding for 
the introduction of U.S. troops into hostilities in Venezuela.
    As I teach my first-year students in constitutional law, a 
few things were as clear in the documents designed, is the 
expectation that Congress would play a central role in our 
democracy and defining the purpose and regulating the use of 
U.S. military power, most importantly, when it comes to the 
introduction of U.S. Forces into hostilities. This allocation 
of responsibility was made evident throughout the 
Constitution's text and structure and was unmistakable in the 
Framers' intent. As James Madison put it, in no part of the 
Constitution is more wisdom to be found than in the claws which 
confides the question of war or peace to the legislature and 
not to the executive. The trust and the temptation, Madison 
said, would be too great for any one man.
    While the past half century or so Presidential practices at 
times have obscured that design, it has not changed two key 
propositions of Constitutional law that I would like to 
highlight in these few minutes.
    First, Congress enjoys exclusive power under the 
Constitution over the expenditure of Federal funds. Congress 
holds not only sweeping spending authority under Article I, 
Section 8, to provide for the common defense and general 
welfare of the United States, but also authority directed 
toward spending for the military, particularly, including the 
power to raise and support armies and provide and maintain a 
Navy, and of course, declare war.
    Of equal significance is the parallel requirement in the 
Constitution in Article I, Section 9, providing that no money 
shall be drawn from the Treasury but in consequence of 
appropriations made by law. As reflected in these and other 
provisions, Congress' power in the purse is among our 
democracy's most fundamental checks on the exercise of 
executive power.
    H.R. 1004 is an unremarkable exercise of Congress' power in 
this respect under Article I of the Constitution. The bill, as 
drafted, is consistent with many such appropriations 
restrictions Congress has enacted in the past, restricting the 
actions of Republican and Democratic Presidents alike, and is 
limited by its terms to preserve the United States' ability to 
respond in self-defense to armed attacks.
    Second, while there has long been a debate among 
constitutional law scholars and others about the scope of the 
President's power under Article II of the Constitution, to use 
force in the absence of congressional authorization. There is 
far less debate on the effect on the President's power of an 
express congressional prohibition.
    As has been clear since Justice Jackson set the framework 
for evaluating questions and executive power in the steel 
seizure case, a framework the court justices of both parties 
continue to embrace vigorously today, the scope of the 
President's power under Article II of the Constitution depends 
first and foremost on the position of Congress. When the 
President takes steps incompatible with the expressed or 
implied will of Congress, whatever independent constitutional 
power he possesses, is at its lowest ebb.
    At this lowest ebb, the President's claim to any power to 
act in the face of a congressional prohibition must be 
scrutinized with caution, the court wrote, for what is at stake 
is the equilibrium established by our constitutional system. 
This is an equilibrium, in my view, that ensures the President 
is bound by the duly enacted laws of the United States.
    This equilibrium is far from altered in the realm of 
foreign affairs. On the contrary, Congress' full engagement is 
critical in ensuring that the activities of America's military 
enjoy the full support of America's people. As the Supreme 
Court emphasized only recently, the executive is not free from 
the ordinary controls and checks of Congress merely because 
foreign affairs are at issue. It is not for the President alone 
to determine the whole content of the Nation's foreign policy.
    While the President can rightly argue that he has the 
independent constitutional duty to repel sudden attacks against 
the United States, I do not think 1004 can be read to infringe 
on the President's power in this respect. The bill exempts from 
its coverage circumstances in which it may be necessary for the 
armed forces to respond to attacks on U.S. Forces or on the 
United States. And were there any doubt in this regard, 
longstanding principles of statutory construction require that 
a court facing a statute of ambiguous meaning prefer a reading 
of this statute that avoids any constitutional question.
    The Framers knew acutely, personally, what war could cost 
republics, so they built in a series of hurdles. The 
Constitution would require Congress to publicly authorize 
military expenditures in the face of their constituents every 2 
years. The Armed Forces would be manned, the idea was, by the 
citizen soldier, one incapable of acting inconsistent with the 
will of the people of which he and she were part. And a 
majority of the country's elected representatives would be 
required to approve any decision to commit the country to war.
    Fast forward two centuries, and all of those checks have 
been disabled. What we spend on military action is at times 
obscure to the public by vast sums spent on private 
contractors. Just half of 1 percent of Americans serve in the 
military. We are a Nation, according to poll results, in which 
80 percent of Americas support the troops. But during the 
height of the war in Afghanistan, 90 percent of Americans were 
unable to locate Afghanistan on a map.
    Today, Congress is one of the last nominally operating 
checks on the President's power in this regard. I am enormously 
grateful for this committee's decision to engage it. Thank you.
    [The statement of Ms. Pearlstein follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you.
    Dr. Neumann.

  STATEMENT OF VANESSA NEUMANN, PH.D., PRESIDENT, ASYMMETRICA

    Ms. Neumann. Thank you. Thank you very much. We had--there 
are some visuals, I do not know what the protocol is, they have 
been entered as the exhibits.
    To my credentials already presented--and it is Dr. Neumann, 
by the way. Thank you for having me very much, members of the 
committee, for inviting me to testify here today, but more 
broadly, for your concern for my beloved Venezuela.
    As you know, I am an Venezuelan American. I hold both 
passports. And I am a long-time vociferous advocate for 
Venezuela's return to democracy. To my credentials already 
presented, I would only add, I am also a fellow at Yale 
University's Global Justice Program. My company, Asymmetrica, 
is part of the research network for the U.N. Security Council's 
Counterterrorism Executive Directorate, CTED. I worked 
reintegration of paramilitaries in Colombia, which is why I am 
also the academic reviewer for U.S. Special Operation Command's 
teaching manual on counterinsurgency in Colombia.
    My doctoral dissertation in 2004 from Colombia University 
was specifically about--it is entitled, The Autonomy and 
Legitimacy of States: A Critical Approach to Foreign 
Intervention. And it is ironic to me that it is now directly on 
point to my home country 15 years after its publication.
    In many ways, Venezuela is already suffering from war. The 
functions of State have been captured by a serious 
transnational criminal organization that provides safe haven 
and financing for terrorists, actively bombing their neighbors, 
as the ELN did a month ago to the Colombian police academy. It 
is the main transit point for cocaine into the rest of the 
world, destabilizing Central America, and therefore our 
southern border, all while wresting territorial control from a 
legitimate government, and intentionally murdering Venezuelan 
citizens.
    On February 23, Maduro used armed gangs to blockade the 
entry of humanitarian aid and shoot to kill unarmed civilians 
carrying food to their starving relatives. On the border with 
Brazil they massacred the Pemon tribe. On March 11, the 
dictator Maduro went on national television ordering armed 
gangs to slaughter the people. This is what Third Sergeant 
Miguel Torrosa warned us of when he crossed a bridge into 
Colombia on February 22. ``Maduro wants to slaughter the 
people,'' he shouted. The dictatorship certainly seemed happy 
to let us starve and die of treatable disease.
    For me, the paradigmatic case is of the woman who took her 
19-year-old daughter who was dying of starvation to a hospital 
that was closed because of the first night of blackouts. The 
child died, and she roamed the streets carrying her 19-year-old 
child's body that weighed 10 kilos, that is 22 pounds. It is 
the perfect storm of nightmares.
    It has worst inflation than any war zone, about to hit 10 
million percent in 2019; a higher infant mortality rate than 
Syria. More than 330,000 people have been killed by violence 
under the Bolivarian Revolution. 18.7 million Venezuelans are 
losing weight rapidly, 25 pounds in the past year. That means 
we are facing a massive starvation that rivals that of 
Ethiopia, Somalia, and Darfur, but in our hemisphere. And 
according to Gallup 2018 Global Law and Order, Venezuela is the 
least safe country in which to live. It is no wonder that 
Venezuelans are leaving in droves.
    At 3.4 million, Venezuela is the second largest refugee 
population in the world, second only to Syria. There are more 
Venezuelan refugees than South Sudanese, Somalis, or Afghans.
    Before the pervasive blackouts caused by the greatest 
kleptocracy the world has ever seen, the U.N. And the OAS 
estimated that 2 million more Venezuelans would flee this year 
alone, making the total refugee to 5.4 million. And Brookings 
and the OAS estimate that that would be 7.2 million refugees by 
the end of 2020. That would absolutely destabilize the entire 
hemisphere. Now, that was before the lights went out and before 
we ran out of gasoline, which is happening now. We can easily 
anticipate that we will skyrocket past those horrific 
projections.
    Such a massive and rapid exodus will also mean that they 
would destabilize the hemisphere. People will look for 
employment that could well be provided by the ELN, FARC, or 
even ISIS in Trinidad and Tobago, which has alarming rates of 
recruitment. And there recruitment patterns are very different 
from what we have seen in Europe and North Africa. They are 
better suited to the profiles of Venezuelan refugees.
    If we have learned something from our past experience with 
ISIS, is that when gasoline is a rare and precious commodity, 
as it is now becoming in Venezuelan, armed groups make those 
forward operating bases. Venezuela has 960 political prisoners. 
The catastrophic state of repression and chaos is entirely 
predictable and part of regime policy.
    In the 19th century, Immanuel Kant in his Metaphysical 
Elements of Justice argued that one of the results of 
globalization is not just of money and information, but also of 
responsibility. Let us meet that responsibility. Rid our region 
of our greatest threat, restore the dignity and freedom of 
millions of Venezuelans who were once our close friends. Let us 
find a path back to democracy and friendship and cooperation 
and not hand a dictator a carte blanche for further slaughter 
of our only democratic forces and your friends with a 
legislation that is unnecessary and serves only to plunge my 
people's misery in DC partisan politics. The Venezuelan crisis 
has been a source of bipartisan cooperation. Thirty-two million 
of us need you to keep it that way.
    I thank the committee for its time in letting me speak here 
today and for its concern for Venezuela. I remain at your 
service as you develop policies that will be productive for 
both my countries. Thank you.
    [The statement of Ms. Neumann follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I thank you, Dr. Neumann.
    Let me ask Dr. Chavez a question. Let me ask you about the 
position of the Colombian Government on military intervention 
in Venezuela. Former Colombian President Alvaro Uribe, a friend 
with whom I worked closely when he was head of State and I was 
chair of the Western Hemisphere Subcommittee between 2006 and 
2010--President Uribe is certainly no dove, yet he was crystal 
clear last month that military intervention in Venezuela must 
not be an option. And the current President of Colombia, Ivan 
Duque, signed his government on to the February 25 declaration 
of the Lima Group, which also included major countries in the 
Americas like Argentina, Brazil, and Canada, stating that a 
transition to democracy, and I quote, ``must be conducted by 
Venezuelans themselves peacefully and within the framework of 
the constitution and international law supported by political 
and diplomatic means without the use of force'', unquote.
    My feeling is that Colombia has more at stake in the 
Venezuela crisis than any other country. And the Colombian 
people have opened up their hearts and homes to over 1 million 
Venezuelan migrants and refugees.
    So let me ask you, Dr. Chavez, why do you think President 
Duque and former President Uribe have been so adamant in 
rejecting any type of military intervention in Venezuela? What 
is at stake for Colombia?
    Ms. Chavez. Thank you for the question. I think it is 
really important to note, as you did, that Colombia is the 
country--arguably the country that is most impacted by the 
refugee crisis in the region. I think the current number, it is 
at 1.2 million Venezuelan refugees and migrants are in 
Colombia.
    And as you said, President Ivan Duque, as well as former 
President Uribe, have unequivocally stated their opposition to 
military intervention. This is because military intervention in 
Venezuela would destabilize Colombia when it is already--it is 
a very precarious moment for Colombia.
    The low-intensity conflict that I described in my remarks 
and in my written statement would certainly spill over into 
Colombia, undermining the 2016 Peace Accord and the delicate 
PDR process. And it would make consolidation of control over 
the Colombian territory even more difficult.
    Dissident FARC members as well as ELN guerillas, and then 
there are the BACRIMs, the armed criminal bands in Colombia, 
would likely join the struggle. I think their numbers are 
currently--there is 1,500 to 2,000 FARC members that have 
refused to disarm; they would definitely be part this of. And 
we have to remember that the border between the two countries, 
that is 1,400 miles long and it is very porous, so spillover is 
inevitable.
    Chairman Engel. Professor Pearlstein, in your testimony, 
you explained why enacting H.R. 1004 would be a constitutional 
assertion of congressional war power. In my view, Congress' 
role as a check on the President's use of military force, has 
been diminished over the years, and we are no longer really 
fulfilling the role the Framers of the Constitution intended.
    Do you have any recommendations for steps Congress could 
take to reassert its constitutional role in decisions over 
America's use of military force, not just in Venezuela, but in 
other contexts as well?
    Ms. Pearlstein. Certainly. And thank you for the question. 
To be clear, I think 1004 is supported by multiple facets of 
congressional power under Article I, Section 8, not just the 
declare war power. But in terms of additional steps that 
Congress could take in this context and beyond this context to 
reassert its role as a coequal branch, I think there are 
several.
    One, and this is an initiative that I know Senator Kaine 
has worked on and others on the Senate side, there are what he 
would call zombie authorizations for the use of military force, 
not just the 2001 authorization for the use of military force 
that authorized the invasion of Afghanistan. The 2002 
authorization for the use of military force that authorized the 
initial invasion of Iraq, and there are actually a number of 
others on the books. Authorizations that have long outlived 
their purpose, but are nonetheless still sitting on the books 
that any President might at any time invoke as a source of 
statutory authority for the use of force. Repealing the zombie 
AUMFs would be an important first step.
    A second step that comes to mind, just this week, the 
President made a decision to rescind an Obama-era order that 
had required the reporting of civilian casualties in areas 
outside of active hostilities, not only casualties that are as 
a result of military activities, but CIA activities as well. 
Congress could easily restore those reporting requirements. 
Congress can frequently, and I think more frequently than it 
does, use the power of the purse that it is trying to do here 
to restrict and guide the President's exercise of authority 
where it does believe that the use of force is possible.
    And then, of course, there is the 2001 authorization for 
the use of military force, the statute that has now been on the 
books for nearly 18 years that has justified or been used to 
justify now by three different Presidents, use of military 
force in well over a half dozen different countries all over 
the world. It is possible, and there are variety of ways to do 
this, to clarify, limit sunset, and in other ways constrain the 
exercise of the President's authority over this way outdated 
authorization for the use of military force that it is, in my 
view, past time for Congress to revisit.
    Chairman Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me just first say at the outset that I think you and I, 
and I think I speak for pretty much every member of this 
committee, clearly believe that Article I of the Constitution 
gives Congress the authority to declare war. And the Founding 
Fathers thought that constitutional democracies would never go 
to war with each other, which why they gave Congress that 
authority, I believe.
    If the President were to commit troops in Venezuela, I 
would be the first member to call upon you, Mr. Chairman, to 
hold a hearing for unauthorized use of military force, but that 
is not where we are today. This is a premature--premature bill 
that takes all options off the table.
    Anybody that has ever negotiated in the State Department 
knows that you need all options on the table to achieve results 
so the diplomats can do their job. That is what the diplomats 
have asked of me, not only of the U.S. Government, but the 
legitimate President Guaido's administration.
    So, Dr. Neumann, let me first say that I believe you speak 
for those millions of Venezuelans who are oppressed and 
starving and dying. I want to thank you for your courage to 
come forward before the Congress. President Guaido has clearly 
stated his support for the use of--or the threat of the use of 
military force against Maduro. I believe it is the one thing 
keeping him alive today.
    In your opinion, what impact does this debate and this 
legislation have on the life and safety of President Guaido and 
others who are risking their lives on the ground as we speak?
    Ms. Neumann. Thank you so much for having me again, and 
thank you for your kind words. I can only hope or be honored 
enough to represent my fellow compatriots, many of whom have--
some people who are here in the audience today have been 
tortured by the Maduro regime. I am not--it is not for me to 
identify them, those are private matters, but there are 
several. And I have had my own address posted online by 
Chavez', claiming I was out to have him assassinated. That was 
back in late 2011. Fortunately, he got my address wrong. After 
I accused him of being--funding--being in cahoots with money 
laundering for Hezbollah, and it turned out I was right, 
because I then went to Lebanon to go see for myself.
    So the impact that it would have is terrible because it 
gives Maduro something to hold up to say that even--even the 
gringos, you know, do not agree with this, that there is 
division. That even within the Empire, which is--these are the 
words he likes to use--have people who side with him and see 
the beauty of the Bolivarian Revolution. And we will see--and 
for us he will take it that they would understand, ``you would 
be entangled in domestic wranglings. These people are thugs. 
All they understand is force.''
    If they think that there is no force coming or no force 
possible, I firmly believe that he will view it as carte 
blanche to continue to slaughter us and possibly take Guaido 
and other people who support him and work with him, and that 
would be the utter devastation of the last vestige of democracy 
in my country. These are also some of my friends, so it is a 
deeply felt matter as well as a moral duty.
    Thank you.
    Mr. McCaul. Dr. Neumann, let me ask you one more question. 
Fifty-four countries have now recognized the interim President 
Guaido as the legitimate President of Venezuela today. How 
important is it, in your opinion, that the U.S. Congress also 
make that same recognition?
    Ms. Neumann. It is hugely important. I actually cannot 
think of a way to overstate its importance, because we need the 
United States to stand behind us. We understand that the United 
States is part of a broader coalition. We want a broader 
coalition. It is very important. But the moral standing of the 
United States, it is well-known that the United States has a 
complicated relationship with Latin America. The best book on 
the subject was actually written by a Venezuelan, called The 
Latin Americans: Their Love-Hate Relationship with the United 
States.'' However, it has always been a beacon of some north, 
and we have already been intervened and invaded. We continue to 
send oil to Cuba, literally over the bodies of my compatriots.
    So the importance of consistency and coherence and 
leadership by the United States, which is our north, in this 
issue of human rights and democracy, we welcome the opportunity 
for the United States to take up that role and that mantle 
again.
    My own family were refugees from the Nazis and then the 
Soviets and into Venezuela. And now, of course, we have the 
Maduro regime. We have always looked to the United States for 
support and guidance on these moral issues.
    Thank you.
    Mr. McCaul. Thank you, Dr. Neumann, for your powerful 
testimony.
    Chairman Engel. Thank you.
    Mr. Sires.
    Mr. Sires. Thank you very much, Mr. Chairman. And thank you 
to our speakers today.
    You know, today, the Venezuelan people are suffering under 
a crisis caused by authoritarian leader, Nicolas Maduro. Since 
Maduro came to power in 2013, he has consistently repressed 
human rights and caused an economic collapse that has left 90 
percent of Venezuela in poverty and forced over 3 million 
Venezuelans to leave the country.
    A week ago, I chaired a hearing in the Subcommittee on 
Western Hemisphere, Civilian Security, and Trade, examining the 
humanitarian crisis in Venezuela. One key takeaway from our 
hearing was that the U.S. should follow the lead of our allies 
in the Lima Group in pursuing a regional solution to this 
crisis. After many years of disagreement, there is now 
consensus in the region that Maduro is an illegitimate 
president, and new elections must be called.
    It also came through in our hearing that the U.S. should 
convey solidarity with the people of Venezuela who have shown 
incredible resilience in the face of a brutal authoritarian 
regime. I believe we in Congress should be unified in 
condemning the Maduro regime, expressing our full support for 
the interim government of Juan Guaido, and calling for free and 
fair election as soon as possible.
    It is important that while we conduct the appropriate and 
necessary oversight of this administration, we never lose sight 
of who caused the manmade crisis. I encourage my colleagues to 
make every effort to call out Maduro and his thugs for who they 
really are as we consider next steps to support the Venezuelan 
people.
    I have been following the Venezuela issue very closely for 
many years, and I have seen how Maduro has repeatedly called 
for dialog. Each time he merely used it as a stalling tactic to 
weaken the political opposition. That said, I do not feel that 
military intervention is the answer to this problem. It is not 
the way to bring democracy back to Venezuela. The Venezuelan 
people and governments throughout the region have all been loud 
and clear in calling for a peaceful, civilian-led solution to 
this crisis.
    But in pressing for a peaceful transition to democracy, we 
need to be careful not to play into Maduro's tactics for self-
preservation. I firmly belief that in this battle between 
democracy and dictatorship, we must stand on the side of the 
Venezuelan people who are clearly demanding change.
    So with this goal in mind of free and fair elections in 
Venezuela, I want to ask Dr. Chavez, can you talk about what 
steps the Administration could take to further coordinate its 
diplomatic and humanitarian responses with the allies in Latin 
America?
    Ms. Chavez. Thank you for the question. So I think you are 
touching on two issues that are both very important. One is the 
delivery of humanitarian assistance, which I will get to a 
second. The first, though, I think is about the role of dialog 
and working in a multilateral fashion.
    So I do agree, I think there have been, in the past, I 
think three major attempts at negotiation with Maduro, and in 
all cases he used them to buy time, basically. However, I think 
that there is a new opportunity now with the International 
Contact Group, which was created in early February, to push--
you know, with the sole purpose of pushing for new elections 
and also for delivering humanitarian aid.
    It has been very active behind the scenes as sort of a 
shuttle diplomacy, discrete meetings with Maduro--with the 
Maduro regime, with the opposition, and also with civil society 
members. I think we should continue to encourage that.
    The other thing that I think is very important about this 
new effort at dialog is that it includes preconditions, which 
is something that the other dialog's previous attempts did not.
    You are right about the Lima Group. I think we need to 
continue to let it take this leadership position to find 
diplomatic solution. And I do not think we should underestimate 
the fact that the Lima Group actually exists and has been so 
outspoken and has taken a front seat, given the very hands-off 
approach that we saw from the Latin American countries until 
2017. And I also think that OAS, under Luis Almagro's 
leadership, has also had a lot of potential and is having 
impact.
    As far as the delivery of humanitarian assistance, I think 
it is very important that we, as much as we can, we 
depoliticize it, which would mean the U.S. and other donors 
turning--at least taking a lower profile and turning to a more 
neutral organization, such as the U.N. or the International Red 
Cross, or even local NGO's that are ready and standing by to 
support the delivery of humanitarian assistance into the 
country.
    Mr. Sires. My time is up. Thank you.
    Mr. Cicilline [presiding]. Thank you.
    The chair now recognizes the gentleman from Florida, Mr. 
Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the 
panelists here.
    Dr. Chavez, what form of official government does Venezuela 
have that is recognized? What is the form of it? Or, Dr. 
Pearlstein, whichever one wants to answer that. Go ahead.
    Ms. Chavez. So the current under Maduro, it is not a----
    Mr. Yoho. No, what is it recognized as? If you look it up, 
what form of government does it have?
    Ms. Chavez. It is a dictatorship.
    Mr. Yoho. It is registered as a Presidential constitutional 
republic is what it is registered as.
    Ms. Chavez. Right.
    Mr. Yoho. And that is what is recognized in the world. But 
as you pointed out, that is not what is being practiced, right?
    Were the last elections fair?
    Ms. Chavez. No. So, first of all, Maduro was Chavez's 
handpicked successor.
    Mr. Yoho. OK. So we are all in agreement with that. The 
Venezuelan Government, or the Constitution, allows for Juan 
Guaido to claim the Presidency, does it not, if we go by the 
Constitution?
    Ms. Chavez. So----
    Mr. Yoho. Their Constitution.
    Ms. Chavez. So actually, the Constitution, the Venezuelan 
Constitution, does not really address the possibility that 
something like this--that this would happen. However, because 
the National Assembly is really the only----
    Mr. Yoho. The National Assembly----
    Ms. Chavez [continuing]. Democratic institution and Juan 
Guaido is president of the National Assembly, it makes--I mean, 
it is appropriate that he is interim president.
    Mr. Yoho. OK. Does anybody have a different opinion? Dr. 
Neumann?
    Ms. Neumann. Yes, I am sorry. It actually is entirely 
foreseen in the Constitution, which was actually drafted and 
passed in 1999, that would be under Hugo Chavez. So Juan Guaido 
is the interim president of Venezuela, under the Constitution 
that is supposed to be defended by the dictatorship. 
Ironically, it is the Guaido side that is defending the 
Constitution. It entirely foresees that if the position is 
vacated because the election is not recognized, as it was not 
at the time by more than 60 countries in the world, and the 
Venezuelan National Assembly, then it is vacant. And then it 
falls to the President of the National Assembly. That is 
written in the Constitution.
    Mr. Yoho. That was my understanding. We met with the 
Ambassador Vecchio and we talked about that. The research I did 
says that there are approximately 65 countries that recognize 
Juan Guaido as the legitimate president. That is about a third 
of the world's countries. You know, of 195 countries, 
approximately about a third of them recognize Juan Guaido.
    And then you have Maduro, who, as you said, is a dictator. 
There are roughly 33 million people. There has been blackouts. 
It is one of the richest countries, resource-wise, that they 
have plundered. And they have stolen over $11 billion worth of 
petroleum revenues from and robbed them from the Venezuelan 
people.
    So now, as you pointed out, there is a third of the 
population has lost over 25 pounds. There is rampant debt. 
There is starvation. Maduro is stopping the humanitarian crisis 
there. And, you know, and I cannot fathom this, but it is like 
a 1.3 million percent inflation. Now, I cannot imagine anything 
getting any worse, but if we do nothing, it will be worse.
    And, Dr. Chavez, you were talking about, you know--and I 
agree with David, my colleague here, Mr. Cicilline, about 
interfering in there, that it may destabilize that area. But I 
would argue it is destabilized now. And the 14,000 FARC 
members, they are going to destabilize anyways, whether we are 
there or not.
    And I agree with the sentiment that I would rather have an 
AUMF authorized by Congress, but to argue now at this point is 
going to jeopardize the legitimate president that is recognized 
by their Constitution and the National Assembly.
    And, you know, let me ask you this: What countries are 
there helping Maduro? What government or other countries are 
helping Maduro, propping him up? Dr. Neumann? You raised your 
hand first.
    Ms. Neumann. I like to raise my hand.
    Well, Russia, Cuba, China, Iran, but all in different ways 
and----
    Mr. Yoho. And Turkey. I am about out of time. What 
countries are there helping the Venezuelan people?
    Ms. Neumann. Well----
    Mr. Yoho. Let me ask Ms. Pearlstein.
    Ms. Neumann. None really. The U.S. has the food at the 
border. That is the closest we have come.
    Mr. Yoho. Other than Colombia?
    Ms. Pearlstein. I am an expert in U.S. Constitutional law, 
not international law.
    Mr. Yoho. Dr. Chavez, other than Colombia, are there any 
other countries helping them, helping the Venezuelan people?
    Ms. Chavez. I think that there are 54 countries have 
declared their support for Guaido.
    Mr. Yoho. Right. But Colombia is the only one, because all 
those people are going into Colombia right now.
    Ms. Chavez. Well, actually, Colombia is not the only one 
country that is----
    Mr. Yoho. I will take--it is probably the largest country. 
The point is----
    Ms. Chavez. Other countries have accepted, for example, 
800,000. I mean, I just want to emphasize----
    Mr. Yoho. I stand corrected.
    Ms. Chavez [continuing]. It is not just Colombia.
    Mr. Yoho. And my chairman is gaveling me, so I have to 
stop, but I think to pull that AUMF right now is going to 
jeopardize the Venezuelan people, and you will see Mr. Guaido 
go to prison or worse.
    I yield back.
    Mr. Cicilline [presiding]. I thank the gentleman. He yields 
back. I recognize myself for 5 minutes. I want to start with 
you, Ms. Pearlstein, as an expert in this area. I think 
actually in your written testimony, you said there is nothing 
remarkable--H.R. 1004 is an unremarkable and constitutional 
assertion of a congressional power to restrict the introduction 
of U.S. Armed Forces into hostilities.
    I would normally maybe not appreciate my legislation being 
considered unremarkable, but I think you make a really 
important point, that this legislation is really reflecting the 
constitutional requirement that before men and women of the 
Armed Forces are deployed in hostilities, that it requires 
congressional authorization. And the only remarkable thing, 
frankly, has been that it has happened so often without 
congressional authorization. And that is really the point to 
Dr. Neumann's comment about it, you know, being a partisan 
divide.
    One of the things we can do to the world is continue to act 
like a democracy, and let people see real debate and respect 
for rule of law, and a Constitution that, by its terms, 
requires congressional action. And when a President, not a 
dictator, is what we have in America, says he is going to use 
force without coming to Congress that we ought to speak out 
against that. And so I just wonder if I have gotten that right?
    Ms. Pearlstein. I think you have it exactly right, sir. I 
would just note, sort of historically, there has been this 
perfect catch-22 that Congress has designed to explain its 
inaction generally, or its lack of action generally in this 
area. And it is in the firsthand, right? Well, it would be 
premature to act now because we do not want to tie the 
President's hands, which makes sense; but it is invariably 
coupled with the second part of the argument, which is, once a 
President has acted, Congress regularly says, we do not want to 
act now, so as to undermine the initiative of the President, or 
undermine and, indeed, endanger our troops overseas.
    And the effect of that invariable coupling of rationales 
has been inaction, sort of, permanently. The good news is 
Congress is capable of sending more than one message at once, 
and Congress is equally capable of acting on more than one 
occasion as circumstances evolve.
    So it seems to me entirely plausible and, indeed, possible, 
based on the sort of bipartisan sense of the room, that 
Congress may legislate to condemn the actions of their current 
leader, to decry the gross violations of human rights that are 
going on there, and, at the same time, to make clear that in a 
democracy, we are going to follow the rule of law.
    Mr. Cicilline. Thank you. And that is why this legislation 
is actually bipartisan, I think, for precisely that reason. We 
all acknowledge the horrors of what is happening in Venezuela. 
I said that during my testimony. The real question before this 
committee is whether or not this declaration by Congress that 
the use of force is not authorized without congressional action 
is helpful or not.
    And, Dr. Chavez, I want to ask you, you say in your written 
testimony and you said it again in your oral testimony, that we 
would squander the goodwill and partnership if we continue to 
threaten military action.
    Would you speak a little bit about what you mean by that? 
Because I have heard from a number of people that we have to be 
conscious of our history in the region, and what we have done 
to repair America's standing in that region, and what the 
repeated threats of military action might do to undermine our 
effectiveness as a partner?
    Ms. Chavez. Sure. Well, first of all, I do want to 
acknowledge and applaud the Administration for the multilateral 
work that it is--especially working closely with the Lima Group 
and the European Union. But the threats, I think, are 
actually--there are a number of reasons that I think they are 
counterproductive.
    One is the reason that you are referencing, that this 
continued saber rattling is going to hinder our ability to act 
multilaterally with our allies. It undermines the consensus. 
One of the beautiful things that has happened is that there is 
consensus. Again, this is unprecedented for such outspoken 
consensus in the region with the United States. And the 
consensus is that a negotiated solution is the best option.
    Things like a tweet that glorifies past military 
interventions, in particular, there was a tweet with images of 
before and after of Qadhafi. I mean, those I think in the 
region--I mean, that is meant, I guess, to kind of keep Maduro 
on his toes or off balance, but what that is is, it is seen by 
the region as glorifying past U.S. military interventions, 
which, in this region, does not go over well. The logic behind 
a threat is--like I said, I understand it. It is to keep Maduro 
off balance, to, you know, we do not know----
    Mr. Cicilline. Can I ask you one question, because my time 
is running out. Have you seen any evidence--I have heard from a 
number of people about the use of this saber rattling by Maduro 
and by the regime as propaganda to kind of rally the country 
around him. If you could speak to that.
    Ms. Chavez. Yes. Yes, absolutely. I mean, this plays into--
I mean, these are--the tweet, for example, that was a gift to 
Maduro. It plays into his narrative about the United States. 
And it plays into the message to the entire region. It plays 
into his narrative or the message he is trying to convey to the 
rest of the region as well.
    Mr. Cicilline. Thank you very much. My time has expired.
    I now recognize the gentleman from Florida, Mr. Rooney, for 
5 minutes.
    Mr. Rooney. Thank you, Mr. Chairman.
    Let me make one thing clear. There has been a lot of talk 
about use of military force, but the question before the table 
now is whether or not to keep the option in our quiver, not 
whether to use military force right now. It is a major 
distinction.
    And I would say after the actions of the Attorney General 
and the Venezuelan Supreme Court today, if we ever needed to 
keep every weapon and tactic in our quiver, we need to do it 
right now. We are just fortunate that Mr. Guaido is still 
alive.
    I would say, third, that thousands of years of human nature 
make it pretty clear that to take away an important weapon in a 
fight like this will only embolden a person like Maduro and 
probably, ironically enough, make it more likely that we have 
to use military force someday that we would otherwise not ever 
have to use.
    Elliott Abrams made it clear that none of our allies in the 
Lima Group, et cetera, have any problem with the fact that we 
have said we want to keep all options on the table. And the 
last thing he said is, there is no plan for military action 
now.
    With clarifying those record matters, I would like to ask 
Dr. Neumann, what do you think our adversaries, like Russia, 
China, Iran, et cetera, are going to perceive were we to remove 
military force from our quiver of weapons?
    Ms. Neumann. Thank you very much. They will see it as a 
sign of weakness and an exploitable weakness. So my company is 
called Asymmetrica, because one of my other credentials is I 
have previously worked with the Asymmetric Warfare Group at DoD 
for years, in fact.
    And what you do is what we call a vulnerability detection 
exercise, which the Russians are also very good at. So it is 
important that it be kept on the table. I want to be very 
clear, that I agree that the discussion of intervention is 
entirely premature.
    My concern--and I am not opining on U.S. constitutional 
matters. My sole opinion here is that having this debate and 
passing this legislation significantly endangers a vast 
population, the last vestige of democracy, and greatly 
increases the odds that we will have vast terrorist 
recruitment, and a larger conflagration in our hemisphere just 
a few months from now.
    Mr. Rooney. Thank you. Dr. Neumann, one more question, kind 
of the obverse of Mrs. Chavez's answer: What message would this 
type of legislation and the obvious reflection of divisions 
among the Congress send to those military officials who may be 
thinking of defecting from Maduro, would like to break with 
him, but are either too timid, or too coerced, or their family 
is too coerced to do it?
    Ms. Neumann. Thank you for the question. Yes. So the 
question of military changing their mind. There are a number of 
things. As you know, if you have ever worked with off-ramping 
armed fighters, which I have, they need to believe that the 
exit ramp is credible and that there is a path that will entail 
their security, and that their families will not be killed.
    That is one of the problems that the military commanders 
have in Venezuela is that Cuban officers follow their kids to 
school, harass their wives as they leave their chemo 
treatments, because they are about the last people who can get 
chemo treatments in Venezuela, and other such forms of 
harassment. And they will tell them where their relatives are. 
So it is the behavior of a cartel, and that is one of the 
issues.
    Removing the stick off the table, separate from American 
constitutional issues, will complicate the transition to a 
democracy, which we so desperately need.
    Mr. Rooney. Thank you, Dr. Neumann.
    I yield back.
    Mr. Cicilline. I thank the gentleman for yielding back. And 
I would just remind the gentleman that nothing in the 
legislation that we are currently considering takes this 
military option off the table. It simply requires engagement 
from the Congress of the United States.
    So, with that, I recognize the gentleman from New York, Mr. 
Espaillat, for 5 minutes.
    Mr. Espaillat. Thank you, Mr. Chairman.
    I want to thank all the panelists because all of your 
testimoneys have been compelling, and I think they make us 
think about the different perspectives that are out there 
regarding Venezuela.
    And, in fact, you know, there is not much of a divide here. 
I think there is a consensus that Maduro is a dictator. I think 
there is a consensus that Venezuela is facing a humanitarian 
crisis of unprecedented levels. I think there is a consensus 
that we must have free and democratic and transparent elections 
in Venezuela, that, in fact, sanctions should be applied and 
the Magnitsky Act has been applied to certain people. There is 
a consensus, a very large consensus here.
    I think the difference here is whether or not military 
action should be applied. And I believe that an empty threat is 
not a threat at all. So unless you are willing to use military 
force, do not use the threat. I think the countries are far too 
sophisticated to understand when there is an empty threat or 
not and, in fact, some of you have specified during the--
detailed during this panel, the region itself is very sensitive 
to dictators, right, first of all, from both sides, from the 
left and the right, and also to intervention.
    So the region is very sensitive and open to help, because 
many of the countries in the regions have been under the boot 
of a dictator, and many of the countries in the region have 
also been intervened and occupied. So these are two very 
sensitive issues.
    And so, what I would like to ask is something more 
specific. The U.S. is still purchasing oil from Venezuela. Do 
you think that we should stop purchasing oil? I know that there 
has been a reduction. Do you think that we should stop, totally 
stop purchasing oil from Venezuela? First, Ms. Neumann and then 
anyone else that would like to.
    Ms. Neumann. Yes. I mean, I believe we stop that and any 
purchases of money now go into frozen bank accounts that cannot 
be controlled by Maduro. So I think that is satisfactory. I 
mean, I would have no insight into whether Guaido 
administration has access to those bank accounts or not. I have 
no way of knowing. But that is good not to hand money to the 
dictator who is not there constitutionally, and is causing the 
biggest humanitarian crisis in the hemisphere.
    Mr. Espaillat. Now, I understand also that there is a rift 
between some Chavistas and the Maduro regime. Could you 
elaborate a little bit on that? Is there any truth to that, 
that some hard-core Chavistas are also not for Maduro?
    Ms. Chavez. I think there has historically been tension.
    Mr. Espaillat. Please, Ms. Chavez, Dr. Chavez.
    Ms. Chavez. There has historically been tension. I mean, I 
think you have the Diosdado Cabello, who is always kind of 
angling in for a position. I think that there are fissures in 
that sense within the government. Would you agree? I mean----
    Ms. Neumann. Yes, I would agree. So if Chavez rose--Chavez 
rose as a sort of revolutionary hero with the phrase por ahora 
in 1992 when he failed in his coup attempt. So once a 
putschist, always a putschist maybe. I do not know. But he had 
some credibility or backing by the people as being a fighter 
for them. There are a lot of people who think that Bolivarian 
experiment has gone off course by becoming basically a criminal 
organization. And by that, I mean even people who supported the 
movement.
    The other issue is that Chavez was a revolutionary fighter. 
Maduro is not. He is a former bus driver who has basically been 
trained in Cuba. So he does not have--and if you have worked 
these issues in Africa, they have similar things where, like, 
if you were the anticolonialist fighter, it gives you some more 
public support, rather than just being viewed as a foreign 
puppet, which is what Maduro is.
    Mr. Espaillat. Just one last quick question: And so, given 
the very fragile condition of Venezuela and the Venezuelan 
people are going through hell right now, do any of you believe 
that military intervention would exacerbate and maybe spiral 
the situation out of control into conditions that we have never 
seen in this continent?
    Ms. Chavez. Absolutely. As I said in my written testimony, 
I go into great detail on this, that this would set the stage 
for a prolonged low-intensity conflict. I am as concerned about 
a Chavista insurgency as I am about the Venezuelan military.
    The number of unarmed groups--I mean, armed groups and 
weapons in the country is extraordinary. I think there are 2.7 
million illicit arms flowing around the country, second only to 
Brazil. You have the Colectivos. You have the Bolivarian 
militias. You have the Special Forces, the FAES. All of these 
groups--and the FARC and the ELN, as mentioned earlier. All of 
these groups have incentives, whether it be ideological or 
because their livelihood is tied to Chavez, to continue the 
struggle and to enter into a phase of guerilla warfare.
    So, I think it would create an extremely messy situation, 
and it would be prolonged. It would be ugly. There would be 
massive casualties. So I think the picture is very grim.
    Mr. Espaillat. Thank you.
    Mr. Cicilline. Thank you. The time of the gentleman has 
expired.
    I now recognize the gentleman from New York, Mr. Zeldin, 
for 5 minutes.
    Mr. Zeldin. Thank you, Mr. Chairman.
    And one of the interesting dynamics of this particular 
conversation--I do not know any member of this committee--I am 
not aware of any member of this committee advocating for 
military intervention in Venezuela. I do not know any member of 
this committee who believes that Congress does not have an 
important Article I responsibility here as it relates to 
military intervention with Venezuela.
    I would be interested in knowing, are any of you familiar 
with the four instruments of national power?
    Ms. Neumann. Well, DIME, DIMEFIL, yes.
    Mr. Zeldin. Can you explain the DIME principle?
    Ms. Neumann. Diplomatic, intell----
    Mr. Zeldin. Information.
    Ms. Neumann. Diplomatic, information, military--wait, 
wait--economic.
    Mr. Zeldin. Perfect.
    Ms. Neumann. Thank you. And then the FIL is the other 
three, yeah.
    Mr. Zeldin. All right, gold star. So there are four 
instruments of national power, the DIME principle: Diplomacy, 
information, military, economics. And what we have seen around 
the globe over the course of history with our foreign policy 
where the world of our military overlaps with the State 
Department. You could talk about the DIME principle in North 
Korea, the DIME principle in Iran, where having the M option on 
the table in North Korea ends up making the diplomatic effort 
for multilateral or bilateral diplomacy or your efforts to ramp 
up the economic pressure more effective, because the M is real. 
The intelligence on Kim Jong-un is he is known not to be--known 
to be homicidal, not suicidal. And where he thought that there 
was a possibility that the United States may actually strike 
North Korea, that was something that was a dynamic that changed 
over the course of 2017.
    I think one of the main areas that just really get to the 
heart of where there might be a disagreement right now is that 
there are many members of this committee who believe that the 
diplomatic, information, economic components of the DIME 
principle are more effective with the M option on the table.
    That does not mean that member is advocating for military 
intervention. It does not mean that that member is advocating 
against Congress' important Article I powers. But I do believe 
that it is very important for the military option to be on the 
able, but I do not want to see military--I do not want to see 
the military option actually get implemented.
    So it is just something--I mean, it is an elephant that is 
in the room right now that I just wanted to get to the heart 
of. I do believe that this debate is very important for a 
future date. It is fine that we are having this conversation 
and we are talking about really important issues for Venezuela. 
There is a possibility that at some point in the future, that 
we might be debating an authorization for the use of military 
force or some type of declaration. Maybe it is not--maybe it is 
Venezuela, maybe it is some other country. We do not know 
exactly what is ahead as it relates to that in the future.
    But I would not want any of the points to be taken away 
from any members on either side of the aisle, because I think 
there is actually a lot more bipartisan agreement here on this 
issue than might manifest itself over the course of the 
hearing.
    Earlier on, there was a discussion of the Venezuelan 
Constitution. Article 233 has been interpreted to give Juan 
Guaido power in a situation such as this. It is the United 
States Government's position to recognize Juan Guaido, and in 
the current position that he is in, in charge of the National 
Assembly, it is important for us to support Juan Guaido in that 
capacity. I fear for his life at this particular moment in 
time.
    And I think that in this conversation, while we debate what 
Congress' appropriate role is here, in this particular moment, 
we also should find the bandwidth. We should find the room in 
this debate to also talk about what Congress can do to help the 
situation as much as possible so that that does not get lost.
    So I appreciate the chairman here right now, I guess 
Chairman Cicilline for the moment, for him encouraging this 
debate on this day, but I just wanted to share some thoughts as 
to why--we say we cannot be silent not because we want war, but 
because we want to prevent it. And we should never send our 
troops into harm's way unless they are set up to succeed. You 
send your troops to succeed or you do not send them at all. 
There are basic principles I believe that we all would agree 
on. But hopefully, the Congress' action as a result of this 
hearing is not one that takes the military option off the 
table, not because we want war, but because we want the 
diplomacy, the information effort, and the economic pressure to 
be as effective as possible.
    I yield back.
    Mr. Cicilline. Thank you. I thank the gentleman from New 
York. I now recognize the gentleman from Texas, Mr. Allred, for 
5 minutes.
    Mr. Allred. Thank you, Mr. Chairman.
    And thank you all for being here today, and thank you for 
your testimony. I read through your written testimony. I have 
learned a lot from it and, of course, I think it is very 
important that we are discussing this right now.
    You know, I am a new Member of Congress, and when I was 
seeking this office I talked a lot about how things here can 
too simply be boiled down into black and white. This issue to 
me falls into a gray area. I am a civil rights lawyer, and I am 
very sensitive to the constitutional concerns at play with our 
war powers exercise and how that has been eroded over time and 
how Article I powers have been ignored for too long.
    But I am also sensitive to some of the statements that my 
colleagues have made here on the other side of the aisle about 
sending conflicting signals and trying to make sure that 
whatever comes out of the U.S. Congress is a unified message 
that we oppose the Maduro regime, that we support the new 
government under President Guaido, and that we are not going to 
allow this to happen in our region, in our hemisphere. So I 
want to try and boil down a little bit and get past kind of the 
caricature of, you know, Democrats are trying to do this or 
Republicans are trying to do that.
    Dr. Chavez, maybe this would be best directed to you first. 
What would you recommend that we do in addition to this bill 
that is being considered and is being discussed to make sure 
that if we do take this action, that we are not sending a 
conflicting signal and that we are speaking with a single voice 
here?
    Ms. Chavez. I think one step would be the formal 
recognition of Juan Guaido, bipartisan. I think that would be 
one I think that would be relatively easy. I think that there 
are other things that we could do, maybe not directly related 
to the particular question of military intervention, but one 
would be, I mean, to continue to focus on the fact that there 
are 3.4 million refugees and migrants flowing out of the 
country.
    My question, I think an important question we should be 
asking is how can we, as the United States, help with this? And 
I think there, there are two things that we could do. One is we 
could contribute more to the regional response. The U.N. 
recently had a study, it was 2019, that says that it is going 
to require--and this is just today, and as we know, it has been 
referenced so the numbers are going to increase.
    There is about $750 million required. The U.S. had, between 
fiscal years 2017 and 2019, has said it is about $150 million. 
That is a nice start, but it is not near enough. We need to be 
giving more. Colombia alone is going to need $315 million. So 
more financial assistance to this effort.
    The second piece of that, is extending temporary protected 
status to Venezuelans. I mean, what is happening now is we are 
asking countries of the region--we are acknowledging that they 
are overwhelmed. We are acknowledging that not just Colombia 
but, as I referenced earlier, Peru, Argentina, Chile, the 
islands in the Caribbean, Trinidad and Tobago is being 
overwhelmed, that we extend temporary protected status to 
Venezuela. I think that is something that we can do. We can do 
it soon. I heard when Abrams said that that is something that 
is being under consideration, I hope it is being considered 
very seriously.
    Mr. Allred. Thank you. I completely agree with you. And we 
have had a bipartisan request from some Senators to extend TPS 
protections to Venezuelan refugees, and I would encourage 
members of this committee to consider that as well.
    My time is running out, so I want to go to you, Professor 
Pearlstein, and talk about the constitutional issues here. And 
I want to go back to law school a little bit. I am a lawyer and 
we can kind of nerd out here a little bit and go back to the 
Steel Seizure case, and just ask you if this expression of 
Congress, how that would affect the President's ability to act 
under Article II, and how that it would interact with that 
precedent?
    Ms. Pearlstein. Thank you. I am delighted to nerd out on 
constitutional law.
    So let me begin by responding to that by picking up on the 
point that has been made by describing what 1004 is trying to 
do is removing authority, or taking something off the table, 
right? Currently, the President has no authority under the 
Constitution or under any source of authority statutorily to 
introduce forces into hostilities in Venezuela. My view is, I 
do not believe in a democracy a President can credibly threaten 
force that he has no legal authority to use. That is the 
current status quo, right? That is the state of affairs if 
Congress does absolutely nothing here.
    What this does is interject and say, Congress is watching. 
We are not taking anything off the table, but we are saying 
before you take the next step, we will specifically authorize 
funding, right? This is just about the money, right? And this 
is simply reiterating you cannot spend money we have not given 
you to spend, right? I think that is the critical point here. 
This does not change the constitutional dynamic in any 
important way, with the exception of the Steel Seizure point, 
right?
    The Steel Seizure point, Justice Jackson's famous 
concurrence says the scope of the President's powers waxes and 
wanes as a function of what Congress does. When Congress has 
said nothing, right, the President is acting in, effectively, a 
constitutional twilight zone. Perhaps the President can claim 
power that even though we know what the Constitution says he 
does not have, perhaps the President will have an argument 
there. It will depend on temporary imponderables, in the words 
of the Court.
    The President is in a different constitutional position 
when Congress has affirmatively said not yet, or no. And that 
is the shift, that is the gearshift that this legislation would 
make. It would say, whatever arguments you think you have based 
on past practice are not available in the moment in which we 
have said not yet.
    Mr. Allred. Thank you so much.
    Thank you for your indulgence, Mr. Chairman.
    Mr. Espaillat [presiding]. I recognize the gentleman from 
New Jersey, Mr. Smith, 5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you all for your testimoneys. I would like to ask Dr. 
Neumann, if you could--and a lot of my questions have been 
answered. So I do have one final question I would like to ask, 
and that is on the issue of war crimes, or crimes against 
humanity indictments.
    I was very involved with the court of Yugoslavia, with 
Slobodan Milosevic, and worked very hard on that, held multiple 
hearings on it as well. When Rwanda and the atrocities 
committed there occurred, I also was very supportive of the 
court, which was a regional court. And then David Crane, who 
was the chief prosecutor for the court of Sierra Leone, I had 
several hearings and he was extraordinarily effective. And 
Charles Taylor sits in prison today with a 50-year prison 
sentence, former President of Liberia, for his egregious crimes 
because of those prosecutions.
    What kind of game-changer might it be if Maduro were to be 
indicted? There is preliminary work that is being done by the 
ICC. I think it is often too slow and not aggressive enough in 
gathering facts, but nevertheless, the chief prosecutor, Mrs. 
Bensouda, has gotten a referral from six States, beginning with 
Argentina, Canada, Colombia, Chile, Paraguay, and Peru, and on 
February 18th announced that she has opened an independent 
impartial review on the number of communications--from the 
number of communications and reports documenting alleged crimes 
falling within the jurisdiction of the ICC.
    And, of course, this is not a panacea, but I have met with 
Bashir; I am one of the few people who met with Bashir. The 
first thing he wants lifted from his resume is the fact that he 
is an indicted war criminal. He always runs the risk of being 
extradited. I remember we tried very hard in the European Union 
especially, to get Ankara to do that when he was going to visit 
there. China would do it. But that does hang over him as kind 
of a sword of Damocles. He is wanted and we prosecuted him. 
People like Milosevic never thought that they would face a jury 
or a group of, I should say, judges. Of course, he died before 
a verdict was rendered in Yugoslavia.
    But it seems to me the time has come in addition to--and I 
do believe all cards should be on the table. I do not think 
intervention by the U.S., that case has been made, but it 
might. But I think, as you said, Dr. Neumann, multilateral--I 
mean, we do it all the time. We empower African Union 
peacekeepers all the time where there is no peace to keep. They 
go in more as peacemakers under the guise of peacekeepers. And 
I was in Darfur when the first deployment was made there by 
peacekeepers and there was no peace, but they were there, 
nevertheless, trying to separate the Janjaweed and others from 
their victims.
    So what would an indictment do to this situation? Do you 
have confidence that the ICC might be able to really take this 
up aggressively? One of the knocks against them is that most of 
the indictments have been against sub-Saharan Africans, 
including the President of Kenya. So it seems to me if Maduro 
does not fit the bill for someone who is committing atrocities, 
I do not know who does. So my hope is one of the messages going 
out of this hearing will be ``let's indict Maduro.'' Let's let 
the world community bring him to the Hague and to be held 
accountable for these egregious crimes that he is committing 
every day.
    Dr. Neumann, your thoughts.
    Ms. Neumann. Thank you very much. Yes, from a Venezuelan 
perspective, it is a real game-changer for a number of reasons. 
As I explained before, you know, this whole concept of the 
Bolivarian Revolution was supposed to bring peace, justice, 
include marginalized populations, and a greater enactment of 
human rights. The fact that it has gone in precisely the 
opposite direction and the OAS--you will forgive me, I do not 
have the numbers today, but I believe that--to hand, but it is 
the OAS report, which was comprehensive.
    I do not know. Over 13,000 extrajudicial killings. It 
considered the use of food and privation of food as political 
policy as a form of--I do not know, I think they called it a 
slow-motion genocide. I am not sure. They definitely called it 
a crime against humanity.
    And it is a game-changer, because it undermines the 
narrative of what these guys are about. It really presents the 
opportunity that he will be gone, that there is a possibility 
that he will face trial. It acts as a disincentive to those who 
support him, that you do not want to be caught up in this. I 
mean, you know, you are in it either for the money or either 
the ideology first and then the money later, but you want to 
change your mind.
    And also, quickly, from a Latin American perspective, the 
fact that all those other Latin American countries backed the 
case before the ICC has never happened before in the 
hemisphere. So that is another signal that the countries of the 
hemisphere are changing in their relationship to international 
institutions, their views of institutional support and 
democracy. They want to play on the side of rule of law and be 
taken seriously, despite the fact that they have a complicated 
history with their own democratic institutions in the past. The 
region has been growing up and Venezuela remains a black mark, 
and the ICC case is a turning point, both internally and 
internationally.
    Mr. Smith. Thank you for your indulgence.
    Our other distinguished witnesses, should he be indicted, 
Maduro?
    Ms. Pearlstein. Could Maduro be indicted?
    Mr. Smith. Should he be?
    Ms. Pearlstein. Should he be? I am a supporter of the role 
of international criminal law in this role. I think the ICC is 
in a position to play an effective role. I think their role 
would be more effective with active U.S. support of 
international criminal law in this regard.
    Mr. Smith. As you know, both Republicans and Democrats have 
not--I mean, President Obama had House and Senate, there was no 
ratification. Clinton did sign it, but there has always been 
opposition from the Pentagon. But, that said, there could be a 
referral from the Security Council. So there is no doubt that 
that is one avenue that is open even to us. There is already 
enough. Six countries, I think, is enough to get the ball 
rolling.
    Ms. Pearlstein. Yes.
    Mr. Smith. But should he be indicted, in your view?
    Ms. Pearlstein. Should the facts----
    Mr. Smith. Maduro.
    Ms. Pearlstein. Yes. Should the facts support it, I would 
absolutely support an indictment.
    Mr. Smith. Based on what you know?
    Ms. Pearlstein. Based on what I know, certainly.
    Mr. Smith. Yes, Dr. Chavez.
    Ms. Chavez. So I think that this is a question that is 
going to be up to the people of Venezuela. I mean, there are a 
lot of questions over amnesty, but there is also talk of 
providing Maduro some sort of off-ramp. As repugnant as that 
might be, there has been talk about--and I do not think we want 
to necessarily take that off the table either.
    Mr. Smith. Sometimes an indictment sharpens the mind.
    Ms. Chavez. No, no.
    Mr. Smith. Mengistu has an off-ramp out of Ethiopia, but 
there was a lot--there was a clamor for his prosecution, not at 
the ICC, but elsewhere. Thank you.
    Mr. Cicilline [presiding]. The gentleman's time has 
expired.
    I recognize the gentleman from New Jersey, Mr. Malinowski, 
for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    And let me start by saying I like Congressman Smith's idea 
of the ICC. One small problem is that my understanding is that 
the Administration is currently considering imposing a visa ban 
on ICC officials, and sanctioning countries around the world 
that support the ICC. And that might be another direct blow to 
the solidarity within the region that has built up around 
Colombia and Venezuela. And I would hope that we would urge the 
Administration not to go in that direction.
    Dr. Chavez, I want to come back to the very scary picture 
that you painted of potential conflict in Venezuela. Now, you 
painted that picture in the context of potential military 
intervention. But when you describe a country that contains 
millions of people who are armed, that is extremely polarized 
and factionalized, where all sides are increasingly desperate, 
it sounded to me like you were painting a picture of a 
potential conflict or civil war that could very well take place 
without any sort of external intervention, and I wanted you to 
maybe elaborate on that a little bit.
    Ms. Chavez. No. And I do think that something--that--you 
are right, and I think that the level of violence is 
increasing. The level of desperation of the Venezuelan people 
is increasing. And so I think that things could get a lot worse 
before they get better, which is why I think the very sad fact 
is that there is really no silver bullet, and perhaps that is 
why military intervention was considered an option is maybe 
that would be something that would be quick. I think we all 
want something quick to stem this tide, this tragedy.
    I think the issue of peacekeeping came up. I could imagine, 
at some point, an international coalition, and the U.S. being 
part of this coalition of forces, to deal with the situation in 
Venezuela. It is a unilateral U.S. military intervention that I 
am opposed to.
    Mr. Malinowski. Well, you just anticipated my next 
question, and that is precisely whether that kind of State 
collapse followed by an outbreak of civil war-type violence in 
Venezuela could alter the perceptions of regional countries--
the OAS, Colombia--about the need for some sort of cooperative 
multilateral intervention to restore peace and protect civilian 
life. And that does get back to the question on the table, 
because this resolution does not really differentiate between 
various scenarios that might arise in the future.
    Now, as everybody has pointed out, the resolution does not, 
in fact, take the threat of military intervention off the 
table. Legally, it does not do that. It could be perceived, 
though, as carrying that message, which is one reason there has 
been kind of confused debate about it today. Are we debating 
the merits of military intervention, or are we simply debating 
the congressional role in a decision with respect to military 
intervention?
    Is there a risk, because, again, we have to make a decision 
as to what is wise here. The resolution is not compelled 
legally. We have an absolute legal right to pass this, but we 
are not compelled to. So the question is, is it wise? And I 
think we all understand that threats of military intervention 
are unwise right now. Tweets of the sort you describe, 
profoundly unwise.
    But convince me that an affirmative vote by the Congress 
for a resolution that could be perceived as taking the 
possibility of any form of military involvement, including 
through peacekeeping, off the table would be wise and necessary 
at this point.
    Ms. Chavez. So what I can say to that is I am going to 
defer to the constitutional law scholar about the type of 
military intervention would be permissible, but what I would 
say is that I would not want to take a multilateral coalition-
type response to what is going on off the table. Our right to 
protect--I mean, I think there are--it might come to that. And 
just--and if we--one thing I want to say about this is that the 
countries of the region of Latin America, it is often 
overlooked that they have great experience and know-how when it 
comes to peacekeeping. Uruguay, Chile, Brazil. Mexico is 
getting into this game. I mean, I think that if the calculus 
changes, that would be the way to go.
    As far as the legal constitutional piece, I am not as clear 
on.
    Mr. Malinowski. Thank you. My time is up, so it is up to 
the chairman. But if you want to address that, sure.
    Mr. Cicilline. The gentleman's time has expired, but the 
witness is certainly free to answer the question.
    Ms. Pearlstein. Certainly. I think the constitutional 
question here is straightforward and noncomplicated. The 
concern that this might convey a message that Congress is not 
intending to convey, right, I think that is beyond my pay grade 
as a lawyer. But I want to make clear, right, that this is a 
funding restriction, and it says by its terms, we can do this 
by specific statutory authorization.
    If this bill is coupled with some of the other measures 
that Congress is considering, it seems to me entirely plausible 
that the message sent will be one of a Congress actually seized 
of the issue and determined to engage.
    Mr. Cicilline. Thank you very much.
    The chair now recognizes the distinguished gentleman from 
the State of California, Mr. Vargas, for 5 minutes.
    Mr. Vargas. Mr. Chairman, thank you, again, and thank you 
for this opportunity. And thank you for bringing H.R. 1004 
forward. I think it is important that we have this discussion. 
As I read section 2 of it, it says: ``None of the funds 
authorized to be appropriated or otherwise made available to 
the Department of Defense or any other Federal department or 
agency may be used to introduce the Armed Forces of the United 
States into hostilities with respect to Venezuela except,''--
``except a declaration of war, a specific statutory 
authorization described in subsection B, or a national 
emergency created by an attack upon the United States, its 
territories or possessions or the Armed Forces.''
    So what we are debating here, this bill is, in my opinion, 
what is that balance between the authority that we have as 
Congress, and the authority the President has. Arthur 
Schlesinger, I believe, was the author, the historian who said 
that there is the imperial Presidency now, and that in the last 
100 years, the Presidency has grown tremendously and has 
usurped in a sense a lot of what Congress should be doing.
    So, in my opinion, what we are doing here is debating what 
is that balance. And I think, Dr. Pearlstein, you mentioned it 
well. I think you mentioned James Madison, quoted him saying 
one person, it is not wise to have one person take us to war. 
Instead, it should be the community, in the sense the 
representatives, that make that decision. I agree with that 
wholeheartedly. And I think it is time that we take back that 
responsibility.
    I think that we, unfortunately, have allowed the Presidency 
to grow in a way that is not healthy for our country, and I 
think we are seeing that right now in this particular 
Presidency, although we have seen it in other Presidencies, 
also with Democrats, to be fair.
    So I think that this is very appropriate. I certainly will 
support it. However, I do think that what has been brought up 
here today, the issue of, you know, what message do we send to 
Venezuela, because I think we are all in agreement, and I have 
listened to all the testimony here today. I mean, it is a 
terrible situation. It is a horrible situation. No one 
disagrees with that. And that Maduro is a dictator, a thug, and 
a horrible human being, no one disagrees with that. I think we 
are all in agreement. Just what role do we have to play as 
Congress? And I think that that is important. We need to 
reestablish our position. And so that is why I certainly 
support it.
    But I do have some questions, and I do want to follow up a 
little bit on this notion of how this will be taken in 
Venezuela. And, Dr. Neumann, maybe I will ask you that 
specifically. I know you take a little bit harder line than the 
other two, but I would like to know how you take this, because 
we are not taking anything off the table. We are just simply 
saying, you have to jump through these constitutional 
necessities first that are important to us, maybe not as 
important to Venezuela at this moment, but important to us. But 
I would like to know your opinion.
    Ms. Neumann. Thank you very much. Thank you for your 
question. Yes, I am la mujer venezolana on the panel, and I am 
thrilled to be on with two other women. For the record, I 
wanted to say that.
    And, of course, yes, I want to be really clear. I do not 
want to opine on the complications of internal domestic U.S. 
politics. I am a dual citizen. I am here to discuss the 
concerns from the Venezuelan perspective. I have, you know, as 
a moral political philosopher, vastly hundreds of pages on the 
rule of law.
    Mr. Vargas. Doctor, how will this affect the mentality in 
Venezuela? That is my question.
    Ms. Neumann. The mentality is the mentality of a thug. It 
will be misconstrued to understand, to think that President 
Trump is hamstrung. Whether that is the intent or not, that is 
how it will be understood and represented by a man who has just 
called for the slaughter of his people by a multitude of armed 
groups.
    Mr. Vargas. Thank you.
    Dr. Chavez, will you comment on that? Is that the way that 
you think that it will be understood in not only Venezuela, but 
Latin America? I know, because we do have allies here that are 
working with us.
    Ms. Chavez. So I actually think it would be welcomed by 
Latin America, the passage of this legislation, because I think 
that there have been so many mixed messages. So you have, for 
example, the tweets I referred to, or Secretary Pompeo's recent 
statement about the reason we are removing officials from our 
embassy is because we want to be--we do not want to be 
constrained when it comes to policy responses.
    I think those sort of--I think having a clear message that 
no, that--I mean, not that we are not going to intervene 
militarily, but this particular legislation shows that we are 
going to think this through really carefully. This is a really 
big decision. Congress should play its role in it. So----
    Mr. Vargas. Thank you. My time is almost expired. I do want 
to say that I think we are out of equilibrium. The Constitution 
has these checks and balances, and we need to get back into 
that constitutional equilibrium. So I support this motion. 
Thank you.
    Mr. Trone [presiding]. I recognize Mr. Costa for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, and members 
of the committee and the witnesses. I think you have done an 
excellent job.
    The measures before us have as much to do with our own 
constitutional authority and the role in which Congress has 
abdicated part of that responsibility, as it does about our 
policy toward Venezuela. But let me drill down on a couple of 
things that have been discussed here already.
    The policy of this administration, and I like the notion 
that was made a moment ago about consistency and policy. I 
think this administration, from my perspective, has had more 
difficulty being able to demonstrate consistency on a whole 
host of foreign policy initiatives, and I think this is but one 
example of that. All administrations wrestle with that, but 
this one seems to--when you have foreign policy by tweet, I 
think it is a very difficult challenge.
    Having said that, they have engaged in a multilateral 
effort here. What would the three of you--comment quickly, 
because I have a few other questions--as to so far the policy 
that has been taken to embrace this multilateral effect, and 
what more do you think should we be doing? Dr. Chavez.
    Ms. Chavez. So like I said, I applaud that we have taken 
this multilateral approach. I think we should continue to, 
first and foremost, I think just recognize the importance of 
the Lima Group, and what it is doing, and let them take the 
front seat in these diplomatic----
    Mr. Costa. So what more could we do?
    Ms. Chavez. I think we could also give the International 
Contact Group a chance. It is relatively new.
    Mr. Costa. Do they have a timeline?
    Ms. Chavez. So they started in early February, but they 
have already begun sort of the shuttle diplomacy effort. I 
think it is an important group also, because it is a very 
diverse group, with eight European countries, four Latin 
American countries. So, again, supporting that.
    Mr. Costa. Barrister Pearlstein? You are a barrister, are 
you not?
    Ms. Pearlstein. Pearlstein. Yes. I would just make the 
point that multilateralism in this regard, working with 
regional allies, ideally working with international allies, 
depending on what is coming down the road, may be necessary 
from the point of view of international law to make any 
subsequent U.S. cooperation----
    Mr. Costa. I think we concur with you, yes.
    Ms. Pearlstein [continuing]. Lawful.
    Mr. Costa. So what more could we do?
    Ms. Pearlstein. What more could we do? I think the 
engagement of the ICC, the engagement of the U.N. Security 
Council on some sort of resolution, whether or not, indeed, way 
before----
    Mr. Costa. For the off-ramp on Maduro, does the potential 
of an indictment help?
    Ms. Pearlstein. So there are a number of range--so there is 
a range of views on this peace versus security question.
    Mr. Costa. Right. We have different options that we are 
discussing right now.
    Ms. Pearlstein. Right. And the range of options that are 
available, my impression is the credible threat of indictment, 
should the facts bear that out, right, can help clarify 
thinking well before, right? The ICC process is a long one. 
There is an investigation and so forth. And allowing that 
process to begin does not foreclose any options.
    Mr. Costa. What would you care to add to that question 
about the Administration's----
    Ms. Neumann. Thank you. The unilateral--the bipartisan 
acknowledgement of the Venezuelan Constitution and that Juan 
Guaido is the interim president under that Constitution.
    Mr. Costa. And we can do that as a Congress.
    Ms. Neumann. Supporting a transition.
    Mr. Costa. We can do that as a Congress?
    Ms. Neumann. As a Congress. There is a Congress. Support 
that transition. The calculus on multilateralism is going to 
change as the crisis deepens, so continue to develop strategies 
to prevent the spillover. And also, I believe supporting the 
prosecution of Maduro under RICO. Use RICO to support the 
Maduro indictment.
    Mr. Costa. You mentioned earlier the Organization of 
American States. Do you think that as one of the efforts or 
multiple efforts that we are using to force this change that 
the organization of American States is being used effectively? 
Is there more that could be done?
    Ms. Neumann. Let me say that I am not an expert on the OAS, 
but, obviously, I have been following it. I think what more 
they could do? No.
    Mr. Costa. I mean, what if we were to call a meeting for 
all of them to come together and to----
    Ms. Neumann. To develop a better contingency planning for 
the spectacular crisis. That if the refugee crisis was the 
second in the world before, it is going to skyrocket. We need 
better collaboration on contingency plan.
    Mr. Costa. Dr. Chavez, you look like you are anticipating 
an answer.
    Ms. Chavez. No, sir. I would say the OAS has really stepped 
up in a way that----
    Mr. Costa. Can they do more?
    Ms. Chavez. I think they could do more. I think that there 
should be more outreach. I think, for example, for Congress to 
more outreach to the OAS. But Luis Almagro has--I mean, he has 
been a force of nature.
    Mr. Costa. My time has expired, but a number of delegations 
are looking at visiting in the region here in the next couple 
months. I am with a group that may go to Colombia. What would 
you advise us to do for those that are visiting the area?
    Ms. Chavez. I would say spend time, go to Cucuta. Spend 
time on the border. See the magnitude of the humanitarian--of 
the suffering. I think you will also be surprised by--I 
mentioned earlier the importance of having a neutral party 
deliver humanitarian assistance. There are a lot of small local 
NGO's that are already there, and I think when you go to the 
border, you will see, whether it be Catholic Relief charities 
or local NGO's. And also, I would recommend talking to these 
folks to get a better sense of what the real challenges are 
when it comes to delivery of humanitarian assistance.
    Mr. Costa. Well, we will follow up with all of you. The 
three of you have done a very good job. Thank you.
    Ms. Neumann. Thank you very much for your time. Thank you.
    Mr. Trone. I recognize myself for 5 minutes. I have one 
quick question, and we will head out the door. Given the myriad 
of problems facing Venezuela, what should we concentrate our 
U.S. resources on? Economic pressure? Redoubling humanitarian 
aid? Or additional resource to help the IDPs and refugees? 
Start on the left, Dr. Chavez, and we will go across the table.
    Ms. Chavez. I believe that the priority must be the 
delivery of humanitarian assistance.
    Ms. Neumann. Yeah. Humanitarian assistance, getting it into 
the country, making sure it is not part of some illicit trade 
black market, or political repression. Humanitarian aid is No. 
1.
    Mr. Trone. Ideas on how we get it past the border?
    Ms. Neumann. No. I think--no. I think I want to--I want to 
defer on that if I were, you know--how we get it past the 
border, it is going to take the involvement of multilateral 
groups and support from some elements, either of the U.N. or, 
OAS.
    Unfortunately, Latin America does not have anything like 
the African Union. Something like that would be particularly 
helpful at a time like this. So forming some form of coalition 
and with supervision with the ICRC is really what is needed.
    Mr. Trone. Any other ideas? That is the key.
    Ms. Chavez. One idea I think is to push the U.N. to--ask 
the U.N. to push Maduro to recognize what is going on in his 
country, and to accept aid, and for the U.N. to play a greater 
role in this particular issue.
    Mr. Trone. OK. Thank you all. You guys have been fantastic. 
We really appreciate the briefing and look forward to keeping 
moving and trying to help Venezuela. Thank you. The hearing is 
adjourned.
    [Whereupon, at 6:06 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
